No. 20-__
IN THE

Supreme Court of the United States
____________________

CRAIG EUGENE SMITH,
Petitioner,
v.
JAMES MCKINNEY; KELLY HOLDER; LESLIE WAGERS;
NIKI WHITACRE; JONATHAN JANSSEN,
Respondents.
____________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit
____________________
PETITION FOR A WRIT OF CERTIORARI
____________________
ANNA MOHAN
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, D.C. 20006
(202) 383-5300

ANTON METLITSKY
(Counsel of Record)
O’MELVENY & MYERS LLP
Times Square Tower
7 Times Square
New York, N.Y. 10036
(212) 326-2000
ametlitsky@omm.com

i
QUESTION PRESENTED
This Court has held that a prisoner has a liberty
interest—protected by the Due Process Clause of the
Fourteenth Amendment—in avoiding conditions of
confinement that impose on the prisoner “atypical
and significant” hardships in relation to the ordinary
incidents of prison life. Wilkinson v. Austin, 545
U.S. 209, 223 (2005).
The question presented is:
Whether a court determining if a prisoner has
suffered an “atypical and significant” hardship must
consider factors such as the duration of and justification for the particular conditions imposed (as several
courts of appeals have held), or whether it can confine its analysis to a comparison of the conditions of
other prison populations (as the court below held,
joining several other courts of appeals).

ii
PARTIES TO THE PROCEEDING
Petitioner is Craig Eugene Smith, appellant below.
Respondents are James McKinney, former Warden of the Fort Dodge Correctional Facility; Kelly
Holder, Captain and Prison Rape Elimination Act
Investigator at the Fort Dodge Correctional Facility;
Leslie Wagers, correctional staff at the Fort Dodge
Correctional Facility; Niki Whitacre, Administrative
Law Judge for the Fort Dodge Correctional Facility;
and Jonathan Janssen, correctional staff at the Fort
Dodge Correctional Facility.

iii
STATEMENT OF RELATED PROCEEDINGS
Craig Smith v. State of Iowa, No. PCLA 006326 (Iowa Dist. Ct. – Lee Cty. (North)) (ruling on application for post-conviction relief entered Aug. 31, 2016).

iv
TABLE OF CONTENTS
Page
PETITION FOR A WRIT OF CERTIORARI ........... 1
OPINIONS BELOW .................................................. 1
JURISDICTION ........................................................ 1
INTRODUCTION ..................................................... 1
STATEMENT OF THE CASE .................................. 3
A. Legal Background .......................................... 3
B. Factual And Procedural Background ............ 6
1. Disciplinary Proceedings ................................ 6
2. Application For Post-Conviction Relief .......... 8
3. This Lawsuit ................................................... 9
REASONS FOR GRANTING THE WRIT.............. 12
A. The Courts Of Appeals Are Intractably
Divided Over How To Determine
Whether Prisoners Have Suffered An
Atypical And Significant Hardship ............. 12
B. The Decision Below Is Wrong ...................... 17
CONCLUSION ........................................................ 21
APPENDIX A
Eighth Circuit Opinion
(Mar. 31, 2020) ................................................... 1a
APPENDIX B
District Court Opinion
(Sept. 26, 2018) ................................................ 19a

v
TABLE OF CONTENTS
(continued)
Page
APPENDIX C
Order Denying Rehearing
(May 26, 2020) ................................................. 30a
APPENDIX D
Order on Application for Postconviction Relief
(Aug. 31, 2016) ................................................. 31a

vi
TABLE OF AUTHORITIES
Page(s)
CASES
Backstrom v. Iowa Dist. Ct. for Jones Cty.,
508 N.W.2d 705 (Iowa 1993) ............................... 8
Bell v. Wolfish,
441 U.S. 520 (1979) ............................................ 19
Beverati v. Smith,
120 F.3d 500 (4th Cir. 1997).............................. 13
Estate of DiMarco v. Wyoming Dep’t of
Corrs.,
473 F.3d 1334 (10th Cir. 2007).........15, 16, 17, 19
Griffin v. Vaughn,
112 F.3d 703 (3d Cir. 1997) ..........................14, 15
Grissom v. Roberts,
902 F.3d 1162 (10th Cir. 2018).......................... 15
Ingraham v. Wright,
430 U.S. 651 (1977) ............................................ 19
Keenan v. Hall,
83 F.3d 1083 (9th Cir. 1996).............................. 13
Marion v. Radtke,
641 F.3d 874 (7th Cir. 2011).............................. 14
Phillips v. Norris,
320 F.3d 844 (8th Cir. 2003).........................11, 13
Rezaq v. Nalley,
677 F.3d 1001 (10th Cir. 2012).......................... 12
Sandin v. Conner,
515 U.S. 472 (1995) ..................................... passim
Skinner v. Cunningham,
430 F.3d 483 (1st Cir. 2005) .............12, 15, 16, 17

vii
TABLE OF AUTHORITIES
(continued)
Page(s)
Superintendent, Mass. Corr. Inst., Walpole v.
Hill,
472 U.S. 455 (1985) .............................................. 8
Wilkinson v. Austin,
545 U.S. 209 (2005) ..................................... passim
Wolff v. McDonnell,
418 U.S. 539 (1974) .......................................... 1, 4
STATUTES AND OTHER AUTHORITIES
U.S. Const. amend XIV ............................................. 3
28 U.S.C. § 1254(1).................................................... 1
42 U.S.C. § 1983 ........................................................ 9

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully requests a writ of certiorari to review the judgment of the United States Court
of Appeals for the Eighth Circuit.
OPINIONS BELOW
The decision of the court of appeals is reported at
954 F.3d 1075 and reprinted in the Appendix to the
Petition (“App.”) at 1a-18a. The decision of the district court entering summary judgment for respondent is unpublished but reported at 2018 WL
10483966 and is reprinted at App. 19a-29a.
JURISDICTION
The court of appeals issued its decision on March
31, 2020. App. 1a. The court denied rehearing on
May 26, 2020. App. 30a. On March 19, 2020, this
Court extended the deadline to file a petition for certiorari to 150 days from the date of rehearing denial.
This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
INTRODUCTION
This Court has long held that “[t]here is no iron
curtain drawn between the Constitution and the
prisons of this country.” Wolff v. McDonnell, 418
U.S. 539, 555-56 (1974). Prisoners may be incarcerated, but they are still protected from deprivations—
without due process of law—of certain fundamental
liberty interests. Those liberty interests can arise
from the Constitution itself by virtue of guarantees
inherent in the word “liberty,” or they may arise
from an expectation or interest created by state laws
or policies. As this Court explained in Wilkinson v.

2
Austin, 545 U.S. 209 (2005), “the touchstone of the
inquiry into the existence of a protected, statecreated liberty interest” is whether the conditions of
confinement to which a prisoner is subjected “impose[] atypical and significant hardship on the inmate in relation to the ordinary incidents of prison
life.” Id. at 223 (quotation omitted).
The courts of appeals, however, are intractably
divided on how to determine whether conditions of
confinement are “atypical and significant” and thus
implicate a prisoner’s protected liberty interest.
Some courts adopt a strict comparative approach,
comparing the prisoner’s conditions of confinement
with those of other prisoners within the prison system (though even these courts disagree about which
prisoners are the relevant population for purposes of
this comparison). If the prisoner’s conditions are no
worse than the conditions of the comparator group,
then no liberty interest is implicated.
Other courts apply a less rigid, multi-factor balancing test. These courts consider, among other factors, the penological justification for and duration of
the prisoner’s particular conditions of confinement in
assessing whether the conditions are “atypical and
significant.” Indefinite conditions that are imposed
for no legitimate penological reason are more likely
to be “atypical and significant” such that a protected
liberty interest is implicated.
That is precisely what petitioner Craig Eugene
Smith endured. Petitioner was accused of violating
prison rules, but his disciplinary report was ultimately expunged and a state court concluded that
there was not even “some evidence” to support the

3
allegations against him. And yet, petitioner was
placed in disciplinary detention for one year and
transferred indefinitely from a medium security facility to a maximum security facility. As a consequence of that transfer, petitioner lost his employment, wages, inmate tier status, security points, and
security classification.
In evaluating whether these conditions implicate
a protected liberty interest, the Eighth Circuit did
not consider their indefinite nature or the fact that
they were imposed on petitioner without any penological or disciplinary justification to support them.
Instead, the Eighth Circuit, relying on its prior precedent, adopted the strict comparative approach and
concluded that petitioner had not suffered an atypical or significant hardship and had not been deprived of any protected liberty interest.
The decision below not only deepens the existing
split among the courts of appeals, but also is inconsistent with this Court’s precedents, which have
made clear that the duration of and reasons for a set
of conditions are relevant factors in determining
whether a prisoner has suffered atypical and significant hardship. The petition should be granted and
the decision below reversed.
STATEMENT OF THE CASE
A. Legal Background
The Fourteenth Amendment provides that no
person shall be deprived of life, liberty, or property
without due process of law. U.S. Const. amend. XIV.
The Court considered that requirement in the prison
disciplinary context in Wolff v. McDonnell, 418 U.S.

4
539 (1974). In that case, Nebraska prisoners challenged the decision of prison officials to revoke—as
part of a disciplinary process—credits the prisoners
had earned under Nebraska’s good time credit
scheme. The Court recognized that the Constitution
itself did not guarantee the prisoners good-time credits. But, the Court explained, the revocation of the
credits still implicated a protected liberty interest
because the State had created a statutory right to
the credits and allowed for a deprivation of that
right only for serious misconduct. Id. at 557. The
Court thus recognized that a prisoner can have a
Due Process Clause-protected liberty interest that
arises either from the Constitution itself or from an
expectation or interest created by state law or policy.
See id.
Since Wolff, the Court has attempted to clarify
the test for determining whether a prisoner has a
state-created liberty interest in avoiding particular
conditions of confinement. In Sandin v. Conner, 515
U.S. 472 (1995), the Court explained that statecreated liberty interests are “generally limited to
freedom from restraint which, … imposes atypical
and significant hardship on the inmate in relation to
the ordinary incidents of prison life.” Id. at 484 (citations omitted). The Court concluded that the prisoner there—who was briefly placed in disciplinary
segregation—had not suffered an “atypical and significant hardship” because the conditions in “disciplinary segregation … mirrored those conditions imposed upon inmates in administrative segregation
and protective custody” and even inmates in the
general population experienced “significant amounts

5
of lockdown time.” Id. at 486. The prisoner, moreover, was only placed in disciplinary segregation for a
period of 30 days so the segregation “did not work a
major disruption in his environment.” Id.
The Court again applied the “atypical and significant hardship” test in Wilkinson v. Austin, 545 U.S.
209 (2005). There, the Court began by recognizing
that in Sandin’s wake, courts of appeals had “not
reached consistent conclusions for identifying” how
to “measure what is atypical and significant in any
particular prison system.” Id. But the Court declined to resolve that issue because it concluded that
the solitary confinement to which the prisoner in
Wilkinson was subjected “impose[d] an atypical and
significant hardship under any plausible baseline.”
Id. In reaching that conclusion, the Court acknowledged that the conditions themselves “likely would
apply to most solitary confinement facilities.” Id. at
224. What set Wilkinson’s confinement apart, however, were the facts that the confinement resulted in
disqualification for parole and that the confinement
was “indefinite” in “duration.” Id.
The question presented here is whether courts
determining if a prisoner has suffered an “atypical
and significant” hardship must consider factors such
as the duration of and justification for the particular
conditions imposed, or whether they can confine
their analysis to a comparison of the conditions of
other prison populations. The court below adopted
the latter approach, in conflict with the approach of
several other circuits and this Court’s precedents.
See infra at 12-21.

6
B. Factual And Procedural Background
1. Disciplinary Proceedings
a. In 1994, petitioner was committed to the custody of the Iowa Department of Corrections. App.
2a.
After spending time at other facilities—
including the maximum-security Iowa State Penitentiary—petitioner was transferred in 2012 to a
medium security facility known as Ford Dodge Correctional Facility. App. 2a.
During his first eighteen months at Fort Dodge,
petitioner obtained and maintained employment,
earned wages from his work, and enjoyed specific security and inmate tier statuses. Petitioner’s record
reflects no disciplinary actions during his first eighteen months at Fort Dodge. App. 22a.
b. On May 28, 2014, almost two years after his
transfer, petitioner was placed in administrative
segregation pending an investigation into allegations
from unnamed individuals that petitioner had inappropriate contact with another inmate. App. 2a-3a.
One week later, on June 4, 2014, respondent Officer
Kelly Holder, a member of the correctional staff at
Fort Dodge, prepared a disciplinary notice, alleging
that petitioner violated the prison’s disciplinary
rules against threats and intimidation, sexual misconduct, obstructive/disruptive conduct, sexual violence, and attempt or complicity in those activities.
App. 2a-3a, 22a. Shortly after, respondent Officer
Leslie Wagers approved the disciplinary notice. App.
3a. On June 12, 2014, respondent Officer Jonathan
Janssen served the notice on petitioner. App. 3a.

7
When petitioner received the disciplinary notice,
he realized that it was based on confidential statements and that the names of his accusers were
withheld. App. 3a, 22a. At a meeting with a correctional officer, petitioner denied the allegations
against him and pleaded not guilty to the rule violations. App. 3a, 22a-23a.
c. On June 18, 2014, respondent Niki Whitacre,
an Administrative Law Judge (“ALJ”), conducted a
hearing on the disciplinary notice. At the hearing,
petitioner denied the allegations and asked to see
the confidential information underlying the complaint against him. App. 3a, 23a. His request was
denied. App. 3a, 23a.
Six days later, on June 24, 2014, the ALJ found
petitioner guilty of several rule violations. App. 3a,
23a. As punishment, the ALJ sentenced petitioner
to 365 days of disciplinary detention (with credit for
27 days already served in administrative segregation) and 365 days’ loss of earned time. App. 4a, 23a.
The ALJ also recommended that petitioner be transferred to the Iowa State Penitentiary, a maximum
security facility, “for a more secured environment in
order to protect staff and offenders from victimization.” App. 4a, 23a.
Petitioner appealed the ALJ’s decision to respondent Warden James McKinney and later to
Warden Nick Ludwick, but both his appeals were
denied. App. 4a-5a, 23a.
d. Three weeks after the ALJ issued her order—
on July 11, 2014—petitioner was transferred from
Fort Dodge to the maximum-security Iowa State

8
Penitentiary. App. 4a. There, petitioner was placed
in segregation to serve the remainder of his disciplinary segregation. And, as a consequence of his
transfer, petitioner lost his employment, wages, security classification, security points, and inmate tier
status. App. 4a.
2. Application For Post-Conviction Relief
a. On October 9, 2014, petitioner filed an application for post-conviction relief in the Iowa District
Court for Lee County, arguing that the ALJ had provided an inadequate statement of the evidence
against him and had improperly relied on confidential information in adjudicating his case. App. 5a,
23a-24a, 31a-36a.
b. After a trial, the Iowa District Court ruled in
petitioner’s favor. Prison discipline cannot be sustained, the court explained, unless there is “some evidence” supporting the disciplinary decision. App.
33a (citing Backstrom v. Iowa Dist. Ct. for Jones
Cty., 508 N.W.2d 705, 710 (Iowa 1993); Superintendent, Mass. Corr. Inst., Walpole v. Hill, 472 U.S. 455
(1985)). In petitioner’s case, “the entire case and set
of allegations against [petitioner]”—including the
“disciplinary notice itself”—are “based upon confidential information.” App. 33a. Thus, “[i]f for any
reason the confidential information portion of this
investigation is eliminated, there is no other evidence … to support the ALJ’s decision.” App. 33a34a.
The court then proceeded to examine whether the
ALJ had complied with the procedures for the use of
confidential information, and concluded that she had

9
not. App. 34a-35a. As a result, the court struck
from the factual record all of the confidential information. “Without that confidential information,” the
court explained, “there [was] not even ‘some evidence’ to support the disciplinary allegations against
[petitioner].” App. 35a. Accordingly, the court
granted petitioner’s application for post-conviction
relief and ordered his disciplinary records to “reflect
that he was not found to have violated the rules as
identified in the disciplinary notice issued on June 4,
2014.” App. 36a.
c. Based on the court’s order, the Department of
Corrections restored petitioner’s earned time credits
and expunged the report from his disciplinary record. App. 6a. But the Department did not transfer
petitioner back to the medium security facility. Instead, he remains at the maximum security facility
where he is unable to have a job and earn wages.
Nor have his former security classification, security
points, or tier status been restored. App. 6a, 25a.
3. This Lawsuit
a. On December 22, 2016, petitioner brought suit
under 42 U.S.C. § 1983, alleging that respondents
violated his due process rights under the Fourteenth
Amendment when they transferred him to the maximum security facility based on a later-expunged
disciplinary report.
Respondents subsequently
moved for summary judgment, and the district court
granted their motion.
b. Petitioner appealed, and on March 31, 2020,
the Eighth Circuit affirmed. When, as here, a prisoner challenges the conditions of his confinement as

10
a violation of the Fourteenth Amendment’s Due Process Clause, the court explained, a prisoner must
first establish that he was deprived of a constitutionally protected or state-created “liberty interest.”
App. 8a. Prisoners “possess a state-created liberty
interest in avoiding assignment to conditions of confinement that ‘impose[] atypical and significant
hardship on the inmate in relation to the ordinary
incidents of prison life.’” App. 9a (quoting Wilkinson,
545 U.S. at 223). But, as the court recognized, “the
Court of Appeals have not reached consistent conclusions for identifying the baseline from which to
measure what is atypical and significant in any particular prison system.” App. 12a (quoting Wilkinson,
545 U.S. at 223).
Despite this lack of a consistent baseline for determining whether conditions of confinement are
“atypical and significant,” the court concluded that
petitioner’s conditions were not. Petitioner’s transfer from the medium security Fort Dodge to the maximum security Iowa State Penitentiary was not atypical or significant, the court reasoned, because “there
is no liberty interest in assignment to any particular
prison” and petitioner had previously inhabited the
prison to which he was transferred. App. 15a (quotation omitted). The court acknowledged that petitioner was transferred to the Penitentiary for an “indefinite duration” with “no sign that he will be
moved to a less restrictive prison anytime soon,” but
failed to explain why that “indefinite duration” did
not affect its analysis of whether petitioner’s transfer
was atypical and significant. App. 16a.

11
Next, the court turned to the conditions of petitioner’s confinement. The court concluded that petitioner did not suffer atypical and significant hardship when he was sent to administrative segregation
and disciplinary detention because he had “failed to
set forth facts describing his conditions of confinement.” App. 17a. And as to petitioner’s loss of employment, wages, security classification, security
points, and inmate tier status, the court concluded
that “none of these losses, individually or collectively, amounts to an atypical and significant hardship”
as compared to the ordinary incidents of prison life.
App. 17a.
Nowhere in its analysis did the court mention
that these conditions—including the segregation, detention, loss of employment, wages, security classification, security points, and inmate tier status—were
imposed on petitioner without “even some evidence”
to support a finding of misconduct on petitioner’s
part. To the contrary, the court stated that under its
precedent, “a demotion to segregation, even without
cause, is not itself an atypical and significant hardship.” App. 13a (quoting Phillips v. Norris, 320 F.3d
844, 847 (8th Cir. 2003)).
Because it held that the “conditions of confinement that [petitioner] faced … do not amount to an
atypical and significant deprivation when compared
to ordinary incidents of prison life,” the court affirmed the judgment of the district court. App. 17a18a.
c. Petitioner filed a pro se petition for rehearing
en banc. On May 26, 2020, the Eighth Circuit denied rehearing. App. 30a. This petition followed.

12
REASONS FOR GRANTING THE WRIT
The Court should grant certiorari to resolve a circuit conflict over how to determine whether a prisoner has suffered an “atypical and significant hardship” such that he has a state-created liberty interest in avoiding his particular conditions of confinement. The courts of appeals are intractably divided
over that important and recurring question, and this
petition presents an ideal vehicle to resolve the division. The court below, moreover, resolved that question in a manner inconsistent with this Court’s precedents.
A. The Courts Of Appeals Are Intractably
Divided Over How To Determine Whether Prisoners Have Suffered An Atypical
And Significant Hardship
To determine whether a prisoner has a statecreated liberty interest in avoiding particular conditions of confinement, courts must assess whether
those conditions “impose[] atypical and significant
hardship on the inmate in relation to the ordinary
incidents of prison life.” Wilkinson, 545 U.S. at 223
(quoting Sandin, 515 U.S. at 484). But, as this
Court has recognized, the courts of appeals “have not
reached consistent conclusions” on how to “measure
what is atypical and significant in any particular
prison system.” Id. These varying approaches are a
“source of major”—and recurring—“disagreement”
among circuit courts. Skinner v. Cunningham, 430
F.3d 483, 486 (1st Cir. 2005); see Rezaq v. Nalley,
677 F.3d 1001, 1011 (10th Cir. 2012) (“Our sister circuits are certainly not in agreement regarding the
correct approach.”).

13
1. Several courts of appeals adopt a strict comparative approach to the “atypical and significant”
inquiry, assessing whether the conditions of the
prisoner’s confinement are similar to those of other
prisoners without considering the reason or justification for that confinement. Even among those courts,
however, there is significant variation in terms of
which prison population is the focus of the comparison.
a. The Fourth, Eighth, and Ninth Circuits concentrate on the general population in the prison as
the relevant comparator. In Beverati v. Smith, 120
F.3d 500 (4th Cir. 1997), for example, the Fourth
Circuit concluded that the prisoner-plaintiffs did not
have a state-created liberty interest in avoiding administrative segregation because “the conditions in
administrative segregation [we]re similar in most
respects to those experienced by inmates in the general population.” Id. at 503-04. Likewise, the Ninth
Circuit in Keenan v. Hall, 83 F.3d 1083 (9th Cir.
1996), opinion amended on denial of rehearing, 135
F.3d 1318 (9th Cir. 1998), interpreted Sandin as
suggesting “that a major difference between the conditions for the general prison population and the
segregated population triggers a right to a hearing.”
Id. at 1088; see also Phillips, 320 F.3d at 847 (“[I]n
order for Phillips to assert a liberty interest, he must
show some difference between his new conditions in
segregation and the conditions in the general population which amounts to an atypical and significant
hardship.”).
b. The Seventh Circuit also focuses on the general
prison population, but it uses high-security prisons

14
as its baseline, not the particular prison in which the
individual is incarcerated. “[T]he right comparison,”
in the Seventh Circuit’s view, “is between the ordinary conditions of a high-security prison in the state,
and the conditions under which a prisoner is actually
held.” Marion v. Radtke, 641 F.3d 874, 876 (7th Cir.
2011).
c. Instead of comparing to the general prison
population, other courts of appeals concentrate on
the population in segregation. If a prisoner objects
to his placement in disciplinary segregation, these
courts consider whether it is “atypical” for prisoners
to be segregated and whether the prisoner’s conditions are consistent with those of other prisoners in
segregation.
The Third Circuit adopted this approach in Griffin v. Vaughn, 112 F.3d 703 (3d Cir. 1997). The prisoner there objected to his placement in administrative custody while he was under investigation for a
violation of prison rules. In concluding that the
prisoner did not have a state-created liberty interest,
the Third Circuit explicitly rejected the Ninth Circuit’s approach, and declined to compare his conditions to those of the general prison population. Id. at
706 n.2. Instead, the court considered whether it
was common for prisoners to be subjected to administrative custody for lengthy periods of time. See id.
at 707. Because “it [was] not extraordinary for inmates in a myriad of circumstances to find themselves exposed to the conditions to which [the prisoner] was subjected”—and to find themselves so exposed for “a substantial period of time”—the court
concluded that the prisoner did not have a state-

15
created liberty interest in avoiding those conditions.
Id. at 708.
2. In contrast, other courts of appeals have eschewed a strict comparative approach, favoring a
multi-factor test that examines holistically a prisoner’s conditions of confinement, the duration of the
confinement, and the state’s justification for imposing the confinement.
a. In Estate of DiMarco v. Wyoming Department
of Corrections, 473 F.3d 1334 (10th Cir. 2007), for
example, the Tenth Circuit rejected the strict comparative approaches adopted by other circuits. Id. at
1341-42. Adopting “a rigid either/or assessment,”
the court explained, would be a “simplistic” reading
of Sandin. Instead, the court examined “a few key
factors, none dispositive, as the Supreme Court did
in Wilkinson.” Id. at 1342. Among those factors, the
court considered “whether (1) the segregation relates
to and furthers a legitimate penological interest,
such as safety or rehabilitation; (2) the conditions of
the placement are extreme; (3) the placement increases the duration of confinement, as it did in Wilkinson; and (4) the placement is indeterminate … .”
Id.; see also Grissom v. Roberts, 902 F.3d 1162, 1169
(10th Cir. 2018) (same).
b. The First Circuit in Skinner v. Cunningham,
430 F.3d 483 (1st Cir. 2005), similarly rejected the
strict comparative approaches described above, in
favor of an analysis of several factors. Id. at 486-87
(describing different circuits’ approaches to “atypical
and significant” hardship analysis). The court concluded that the disciplinary segregation at issue
there was not “atypical and significant” after exam-

16
ining a list of factors, including: (1) whether the reasons for the prisoner’s confinement were “rational;”
(2) whether the “duration” was “excessive;” and (3)
whether the “central condition … was essential to its
purpose.” Id. at 487. Because the court concluded
that the segregation was rational, not excessive, and
central to the prison’s goals, it determined “[t]aking
all the circumstances into account” that his “temporary isolation” was “not unconstitutional either in its
essential character or in its duration.” Id.
3. Under the holistic approach adopted by the
First and Tenth Circuits, it would have been clear
that petitioner suffered an “atypical and significant
hardship” when after being assigned to a year’sworth of disciplinary detention, he was transferred
to a maximum security facility where he lost his employment, wages, security points, security classification, and inmate tier status. Petitioner’s transfer—
and the severe negative consequences that flowed
from that transfer—are “indeterminate” in duration.
Estate of DiMarco, 473 F.3d at 1342. The transfer
came with no expiration date and as of now, petitioner has spent six years in the maximum security
facility with nothing in the record suggesting the
Department of Corrections intends ever to return
him to a medium security facility.
Equally important, there was no penological justification to support the imposition of these restrictive conditions. The sole basis for petitioner’s discipline was a disciplinary report that was expunged by
court order after the Iowa state court found that
there was not even “some evidence” to support the
allegations contained in the report. Without the dis-

17
ciplinary report, there was no “rational” justification
for or “legitimate penological interest” in punishing
petitioner at all, let alone imposing the restrictive
and indefinite conditions described above. See id. at
1342; Skinner, 430 F.3d at 487.
* * *
Petitioner, in short, was subjected to indefinite
(likely permanent) punitive conditions without
cause. Under the approach of the Third, Fourth,
Seventh, Eighth, and Ninth Circuits, he was nevertheless not subject to an “atypical and significant
hardship” that could implicate a due process liberty
interest because his conditions were not atypical
compared to a comparator group. Under the First
and Tenth Circuits’ holistic approach, in contrast,
the reviewing court would be required to consider
the duration and penological justification for the relevant punishment. The constitutionality of a prisoner’s conditions of confinement should not turn on
the happenstance of the geographical circuit in
which he is located. Only this Court can resolve the
circuit conflict and establish national uniformity on
the question presented. And because petitioner’s
punishment here is indefinite and wholly without
justification, he would prevail if the Court adopted
the First and Tenth Circuits’ holistic approach, so
the petition presents an ideal vehicle to resolve the
circuit conflict.
The petition should be granted.
B. The Decision Below Is Wrong
The conflict of authority over a recurring and important legal question suffices to warrant this

18
Court’s review. Review is additionally appropriate
because the decision below is incorrect.
1. This Court’s precedent makes clear that the
“atypical and significant hardship” inquiry should
not be limited to a strict comparison between the
prisoner’s conditions and those of a particular prison
population—whatever the relevant population may
be. Both Sandin and Wilkinson embody a more flexible analysis considering factors such as the duration
of the confinement and the justification or reasons
for the confinement as part of their analysis of
whether a prisoner suffered an atypical or significant hardship.
a. The duration of the prisoners’ confinement
played a significant role in this Court’s analysis in
both Sandin and Wilkinson. In Sandin, “the short
duration of segregation”—30 days—did not “work a
major disruption in the inmate’s environment.” Wilkinson, 545 U.S. at 223 (citing Sandin, 515 U.S. at
486). By contrast, in Wilkinson, the indefinite duration of the confinement—with only annual reviews—
was one of the central reasons that the prisoner’s
confinement was considered atypical and significant
despite the fact that the conditions themselves “likely would apply to most … facilities.” Id. at 224. In
the face of conditions that were perhaps not uncommon, in other words, the Court found that the indefinite duration of those conditions made them atypical and significant.
b. This Court’s precedent also reveals that the
justification for the particular conditions of confinement is an important factor in determining whether
a set of conditions is atypical and significant. In

19
Sandin, the Court distinguished Bell v. Wolfish, 441
U.S. 520 (1979), and Ingraham v. Wright, 430 U.S.
651 (1977). Sandin, U.S. at 484-85. In those cases,
the Court concluded that the petitioners—pretrial
detainees in Bell and school children in Ingraham—
had due process rights to remain free from certain
forms of punishment. See id. (citing Bell, 441 U.S. at
535; Ingraham, 430 U.S. at 674). Sandin—which
involved an incarcerated prisoner—was different,
the Court explained, because “[t]he punishment of
incarcerated prisoners … serves different aims”: “It
effectuates prison management and prisoner rehabilitation goals.” Sandin, 515 U.S. at 485. “Discipline
by prison officials” can therefore be imposed “in response to a wide range of misconduct,” without implicating the prisoner’s liberty interests. Id.
A prisoner’s liberty interest in avoiding certain
conditions of confinement, in other words, is tied to
the goals of prisoner punishment. Discipline can be
tolerated in response to a wide range of misconduct
because it serves legitimate prison management and
prisoner rehabilitation goals. But where discipline is
imposed absent any misconduct, it no longer effectuates those goals and can infringe on the prisoner’s
liberty interest.
In short, adopting a strict comparative approach—without considering the justification for and
duration of the conditions of confinement—is, as the
Tenth Circuit noted, too “simplistic” and cannot be
squared with this Court’s precedent. Estate of DiMarco, 473 F.3d at 1342.
2. The decision below cannot be reconciled with
these principles. Instead of adopting the holistic ap-

20
proach embodied in Sandin and Wilkinson, the court
brushed aside the indefinite duration of petitioner’s
conditions and ignored altogether the lack of reason
for the imposition of the punishment.
a. The decision below acknowledged that petitioner “has been in the maximum security facility for
nearly five years, and there is no sign that he will be
moved to a less restrictive facility anytime soon.”
App. 16a (quotation omitted). But the court dismissed the indefinite nature of that confinement on
the grounds that there is “no liberty interest in assignment to any particular prison” and that petitioner was returning to an institution he had previously
inhabited. That conclusion cannot be reconciled with
Sandin and Wilkinson, in which the Court established that while any particular condition of confinement may not, in isolation, implicate a liberty
interest, when that condition is indefinitely imposed,
it can. See Wilkinson, 545 U.S. at 224 (noting that
while “conditions standing alone might not be sufficient to create a liberty interest,” duration of the
conditions and their effect in disqualifying the prisoner for parole consideration “impose[d] an atypical
and significant hardship within the correctional context”).
b. Nor did the decision below even purport to consider the reason—or lack thereof—for petitioner’s
conditions of confinement. The court acknowledged,
in describing the background of petitioner’s disciplinary proceedings, that the state court held that
“there is not even ‘some evidence’ to support the disciplinary allegations against [petitioner].” App. 6a
(quotation omitted). But when the court evaluated

21
whether petitioner’s conditions of confinement were
atypical and significant, it failed to explain how
there could possibly be a justification for imposing
those conditions, let alone considered how the lack of
a justification might affect its assessment whether
the conditions were atypical and significant. Because this Court’s precedents make clear that the
reason or justification for the conditions of confinement is a relevant factor in analyzing whether those
conditions are atypical and significant, see supra at
18-19, the decision below—in failing to consider that
factor—is incorrect.
The decision below misunderstood this Court’s
precedent and adhered to a strict comparative approach without considering factors like the duration
of and justification for conditions of confinement.
Under a faithful reading of this Court’s precedent,
the court would have considered those factors as part
of a holistic analysis. And under that analysis, the
court of appeals would have been forced to conclude
that because petitioner’s conditions of confinement
were imposed indefinitely and based on no evidence
or justification, petitioner had a liberty interest in
avoiding them. This Court should grant certiorari to
resolve the circuit conflict on that issue, and should
reverse the decision below.
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.

22
Respectfully submitted,
ANTON METLITSKY
(Counsel of Record)
ametlitsky@omm.com
O’MELVENY & MYERS LLP
Times Square Tower
7 Times Square
New York, N.Y. 10036
(212) 326-2000
ANNA MOHAN
O’MELVENY & MYERS LLP
1625 Eye Street N.W.
Washington, D.C. 20006
(202) 383-5300

October 2020

